                              NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



Office of Inspector General


MEMORANDUM

Date:         March 26, 2009

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support

Thru:         Jannifer Jenkins /s/
              Senior Audit Manager

From:         Billy McCain
              Audit Manager

Subject:      Audit Report No. OIG-09-1-005
              Exploratorium


Attached is the final audit report, prepared by Mayer Hoffman McCann P.C., an independent
public accounting firm, on the audit of NSF Award Numbers ESI-0119787, ESI-9910207, and
ESI-0307925 awarded to Exploratorium. The audit covers NSF-funded costs claimed from June
1, 2000 to March 31, 2008, aggregating to approximately $xxxxxxxxx of NSF direct funded
costs and $ xxxxxxxxx of claimed cost sharing. Exploratorium was chosen for an audit because
of the high dollar value and number of NSF awards, the collaborative nature of many of the
awards, and the material internal control deficiencies reported in past OMB Circular A-133
audits.

Overall the auditors determined that except for $340,204 or xxxxxxxxxx               xxxxxxxx
total claimed costs on Exploratorium’s Federal Financial Report (FFR) appear fairly stated and
are allowable, allocable and reasonable for the NSF awards. The $340,204 in questioned costs
include $227,109 of subaward costs where one subawardee billed Exploratorium based on
budget allocations for all cost categories rather than actual costs during the first seventeen
months of the award period and also had $7,676 of unsupported subaward costs for NSF Award
No. ESI-0119787.       Of the remaining $105,419 in questioned costs that affected all cost
categories except subawards, $82,919 of those questioned costs occurred primarily because
adequate supporting documentation was not provided to support the claimed costs for NSF
Award Nos. ESI-0119787 and ESI-9910207; and $ xxxxxxx of the questioned costs were for
program income earned during the last three months of the award period that was not added to
the funds committed to the project and used to further project objectives for NSF Award No.
ESI-0307925 but rather was used to fund Exploratorium’s cost share requirement. The auditors
also questioned $81,866 of Exploratorium’s claimed cost sharing due to insufficient supporting
documentation for NSF Award Nos. ESI-0119787 and ESI-9910207. However, the auditors did
not associate any of the questioned cost share to the NSF funded costs because, overall,
Exploratorium exceeded its cost share requirement.

The auditor’s identified three compliance and internal control deficiencies in Exploratorium’s
financial management practice that contributed to these questioned costs and if not corrected,
could impact current and future NSF awards. Specifically:

   •   Although Exploratorium did some monitoring of its subaward costs charged to NSF
       Award No. ESI-0119787, which included two subawards amounting to $6 million or 54%
       of the total costs charged to the NSF award and a total of $551,000 in cost sharing, the
       monitoring process was limited and could be improved to provide greater assurance that
       the subaward costs claimed are reasonable, allowable and allocable to its NSF award. To
       a great extent, Exploratorium relies on the controls and self-assessments made by the
       subawardees to ensure that subawardee costs are reasonable, allowable, and allocable to
       the NSF awards. This finding was also noted in prior OMB Circular A-133 audit report
       management letters. In addition, the monitoring process does not address foreign or other
       subawardees with no OMB Circular A-133 audit requirement. Therefore,
       Exploratorium’s internal controls over subaward costs do not provide adequate assurance
       that the expenditures incurred and claimed are accurate, valid, allowable, and adequately
       documented. In order to validate the subaward charges, the auditors performed additional
       audit tests at both of the subawardees. At one subawardee, the auditors found direct and
       indirect costs charged based on budget allocations instead of actual costs incurred and
       they found that the subawardee had some unsupported costs. As a result, the auditors
       questioned $234,785 in subawardee costs. Additional required routine subaward
       monitoring could prevent or identify unallowable claimed subaward costs on current and
       future NSF awards.

   •   Program income earned on NSF Award No. ESI-0307925 of $ xxxxxx was not added to
       the funds committed to the project by NSF and used to further project objectives. The
       program income was earned during the last three months of the award and was used
       improperly to fund cost share even though the terms of the award stated that was not
       allowable. This occurred because Exploratorium did not have policies, procedures, and
       controls to identify income earned prior to the termination of the award and to properly
       record program income in Exploratorium’s financial accounting system, even though this
       finding was identified in a prior OMB FY 2003 OMB Circular A-133 audit report. As a
       result, the total expenditures reimbursed by NSF for the award have been overstated by
       the program income received during the life of the grant. Therefore, the auditors
       questioned $ xxxxxxx in costs charged to Award No. ESI-0307925.




                                               2
   •   Exploratorium did not maintain adequate documentation to support some costs claimed
       on NSF Award Nos. ESI-0119787 and ESI-9910207. During our review of direct costs
       charged to the NSF awards and cost share claimed, we found 16 transactions of direct
       costs and 5 transactions for cost share claimed for $164,785 that were either not
       supported or supported with insufficient documentation.           This occurred because
       Exploratorium personnel did not comply with existing policies and procedures for
       maintaining records and sufficiently documenting charges for the NSF awards. As a
       result, Exploratorium’s lack of adequate supporting documentation increases the risk that
       some of the costs claimed by Exploratorium may be unallowable, unreasonable, or not
       allocable to the NSF awards. We questioned $ xxxxxxxxof direct costs and cost share
       claimed, and, $ xxxxxxx of associated fringe benefits and indirect costs.

To address these compliance and internal control deficiencies, the auditors recommend that your
office direct Exploratorium to (1) revise its subaward monitoring policies and procedures to
better assess its subawardee’s OMB Circular A-133 reports; to include steps to monitor foreign
and other subawardees that are not subject to OMB Circular A-133 requirements; and to include
a risk-based monitoring approach to better ensure that costs charged to NSF awards are
reasonable, allowable, and allocable; (2) develop policies, procedures, and controls to properly
account for program income received during the life of an award; and (3) comply with its
existing policies and procedures to ensure that all claimed costs are supported with adequate and
sufficient supporting documentation.

Exploratorium officials concurred with the report findings and indicated that corrective actions
were taken to develop a risk-based monitoring approach in their subawardee monitoring policy
and to include steps to monitor foreign subawardees and other subawardees that are not subject
to OMB Circular A-133 requirements. They also indicated that they were taking corrective
actions to ensure program income was properly identified and recorded, and, adequate
supporting documentation for claimed costs were obtained and maintained for all NSF projects.

Given the systemic and continuing nature of these compliance and internal control deficiencies
we believe the same deficiencies may exist under Exploratorium’s other 15 NSF awards, and if
not corrected, will impact future NSF awards. In accordance with OMB Circular A-50, please
coordinate with our office during the six-month resolution period to develop a mutually
agreeable resolution of the audit findings. Also, the findings should not be closed until NSF
determines that all recommendations have been adequately addressed and the proposed
corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the Division Director, Deputy Director, and
Program Directors in the Division of Research on Learning in Formal and Informal Settings
(DRL) and the Director of the Division of Grants and Agreements (DGA). The responsibility for
audit resolution rests with the Division of Institution and Award Support, Cost Analysis and
Audit Resolution Branch (CAAR). Accordingly, we ask that no action be taken concerning the
report’s findings without first consulting CAAR at 703-292-8244.




                                               3
OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •    Reviewed Mayer Hoffman McCann’s approach and planning of the audit;

      •    Evaluated the qualifications and independence of the auditors;

      •    Monitored the progress of the audit at key points;

      •    Coordinated periodic meetings with Mayer Hoffman McCann and NSF officials, as
           necessary, to discuss audit progress, findings, and recommendations;

      •    Reviewed the audit report, prepared by Mayer Hoffman McCann to ensure compliance with
           Government Auditing Standards; and

      •    Coordinated issuance of the audit report.

Mayer Hoffman McCann is responsible for the attached auditor’s report on Exploratorium and
the conclusions expressed in the report. We do not express any opinion on the Federal Financial
Reports, internal control, or conclusions on compliance with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact me at 703-292-4989.


Attachment

cc:       Joan Ferrini-Mundy, Division Director, EHR/DRL
          David Ucko, Deputy Division Director, EHR/DRL
          Janice Earle, Program Director, EHR/DRL
          Alphonse DeSena, Program Director, EHR/DRL
          Karen Tiplady, Director, DGA




                                                       4
              EXPLORATORIUM
             3601 LYON STREET
      SAN FRANCISCO, CALIFORNIA 94123

NATIONAL SCIENCE FOUNDATION AWARD NUMBERS
      ESI-0119787, ESI-9910207, ESI-0307925



 FINANCIAL AUDIT OF FINANCIAL SCHEDULES AND
       INDEPENDENT AUDITORS’ REPORT
         JUNE 1, 2000 TO MARCH 31, 2008




                          MAYER HOFFMAN McCANN P.C.
                          Conrad Government Services Division
                          Certified Public Accountants
                          2301 Dupont Drive, Suite 200
                          Irvine, California 92612
This page intentionally left blank
                                   EXECUTIVE SUMMARY

An audit was performed on $xxxxxxxxxxxxxx in costs claimed and $xxxxxxxxxxx in cost sharing
claimed as reported on the March 31, 2008 Federal Financial Report (FFR) and cost sharing
reports submitted to NSF by Exploratorium on NSF award numbers ESI-0119787, ESI-9910207,
and ESI-0307925. Exploratorium is a non-profit organization that experiments with new
practices for discovering the world, including a science museum filled with interactive science
and art exhibits, a national center for teacher development, an award winning web site of new
teaching resources, and a growing global network of partner museums. As of September 30,
2008, Exploratorium had 15 active NSF awards totaling over $30 million. Ten of those active
awards are funded at amounts over $1,000,000 each. Exploratorium was chosen for an audit
because of the high dollar value and number of NSF awards, the collaborative nature of many of
the awards, and the material internal control deficiencies reported in past Office of Management
and Budget (OMB) Circular A-133 audits.

Except for $340,204 (xxxxxxxxxxxxxxxxxxxxxxxxx                x) in questioned subaward costs
($234,785) and eight other cost categories ($105,419), we determined that the costs claimed by
Exploratorium under NSF award numbers ESI-0119787, ESI-9910207, and ESI-0307925
appear fairly stated and are allowable, allocable and reasonable for the NSF awards.

Specifically, for $227,109 of the $234,785 questioned subaward costs, one of the subawardees
billed Exploratorium based on budget allocations for all cost categories rather than actual costs
from the inception of the award on January 1, 2002 through May 31, 2003. The remaining
subawardee costs of $7,676 were questioned because the subawardee was unable to provide
supporting documentation for seven transactions. Of the remaining $105,419 in questioned
costs that affected eight other cost categories, $82,919 of those questioned costs occurred
primarily because adequate supporting documentation was not provided to support the claimed
costs. Additionally, program income of $xxxxxxxxx earned prior to the termination of award no.
ESI-0307925 was not added to the funds committed to the NSF project and was inappropriately
used to fund Exploratorium’s cost sharing requirement. In addition, we questioned $81,866 of
Exploratorium’s claimed cost sharing due to insufficient supporting documentation. However,
we did not associate any of the questioned cost share to the NSF funded costs because,
overall, Exploratorium exceeded its cost share requirement.

We also noted three compliance and internal control deficiencies in Exploratorium’s financial
management practice that contributed to these questioned costs and if not corrected, could
impact current and future NSF awards. Specifically:

   •   Although Exploratorium did some monitoring of its subaward costs charged to NSF
       Award No. ESI-0119787, which included two subawards amounting to $6 million or x x
       of the total costs charged to the NSF award and a total of $551,000 in cost sharing, the
       monitoring process was limited and could be improved to provide greater assurance that
       the subaward costs claimed are reasonable, allowable and allocable to its NSF award.
       To a great extent, Exploratorium relies on the controls and self-assessments made by
       the subawardees to ensure that subawardee costs are reasonable, allowable, and
       allocable to the NSF awards. This finding was also noted in prior OMB Circular A-133
       audit report management letters. In addition, the monitoring process does not address
       foreign or other subawardees with no OMB Circular A-133 audit requirement. Therefore,
       Exploratorium’s internal controls over subaward costs do not provide adequate
       assurance that the expenditures incurred and claimed are accurate, valid, allowable, and
       adequately documented. In order to validate the subaward charges, we performed
       additional audit tests at both of the subawardees. At one subawardee, we found direct
       and indirect costs charged based on budget allocations instead of actual costs incurred
       and we found that the subawardee had some unsupported costs. As a result, we
       questioned $234,785 in subawardee costs. Additional required routine subaward
       monitoring could prevent or identify unallowable claimed subaward costs on current and
       future NSF awards.

   •   Program income earned on NSF Award No. ESI-0307925 of xxxxxxxxx was not added to
       the funds committed to the project by NSF and used to further project objectives. The
       program income was earned during the last three months of the award and was used
       improperly to fund cost share even though the terms of the award stated that was not
       allowable. This occurred because Exploratorium did not have policies, procedures, and
       controls to identify income earned prior to the termination of the award and to properly
       record program income in Exploratorium’s financial accounting system, even though this
       finding was identified in a prior OMB FY 2003 OMB Circular A-133 audit report. As a
       result, the total expenditures reimbursed by NSF for the award have been overstated by
       the program income received during the life of the grant. Therefore, we questioned
       $xxxxxxx x in costs charged to Award No. ESI-0307925.

   •   Exploratorium did not maintain adequate documentation to support some costs claimed
       on NSF award Nos. ESI-0119787 and ESI-9910207. During our review of direct costs
       charged to the NSF awards and cost share claimed, we found 16 transactions of direct
       costs and 5 transactions for cost share claimed for $164,785 that were either not
       supported or supported with insufficient documentation.         This occurred because
       Exploratorium personnel did not comply with existing policies and procedures for
       maintaining records and sufficiently documenting charges for the NSF awards. As a
       result, Exploratorium’s lack of adequate supporting documentation increases the risk
       that some of the costs claimed by Exploratorium may be unallowable, unreasonable, or
       not allocable to the NSF awards. We questioned $138,864 of direct costs and cost
       share claimed, and, $25,921 of associated fringe benefits and indirect costs.

Exploratorium currently has approximately 15 additional NSF awards totaling over $30 million.
While we did not assess the impact of these noncompliance and internal control deficiencies on
those awards, we believe the same deficiencies may exist under those programs and, if not
corrected, could impact future NSF awards.

To address these compliance and internal control deficiencies, we recommend that the Director
of NSF’s Division of Institutional and Award Support (DIAS) direct Exploratorium to (1) revise its
subaward monitoring policies and procedures to better assess its subawardee’s OMB Circular
A-133 reports; to include steps to monitor foreign and other subawardees that are not subject to
OMB Circular A-133 requirements; and to include a risk-based monitoring approach to better
ensure that costs charged to NSF awards are reasonable, allowable, and allocable; (2) develop
policies, procedures, and controls to properly account for program income received during the
life of an award; and (3) comply with its existing policies and procedures to ensure that all
claimed costs are supported with adequate and sufficient supporting documentation.

Exploratorium responded to the draft report on March 17, 2009. In its response, Exploratorium
agreed with all the recommendations. Exploratorium did state that they believe the situation
identified in regard to program income was an isolated incident and that there were program
related expenses in excess of the budget that were not claimed that would be available to offset
any questioned costs. Exploratorium stated that policies have been enhanced or put in place to
address the recommendations and procedures have been reviewed and communications made
with appropriate staff. In addition, Exploratorium did not specifically respond regarding the costs
that were questioned in the draft report.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have
been implemented. Exploratorium’s response will be included in its entirety in Appendix A.

For a complete discussion of audit findings, refer to the Independent Auditors’ Report on
Internal Control Over Financial Reporting and on Compliance and Other Matters Based on an
Audit of Financial Schedules Performed in Accordance with Government Auditing Standards.
                                                        EXPLORATORIUM


                                                     TABLE OF CONTENTS

                                                                                                                                                    Page

Executive Summary:

Table of Contents:

Introduction:
    Background ..................................................................................................................................     1
    Audit Objectives, Scope and Methodology ..................................................................................                        2

Internal Controls and Compliance:
    Independent Auditors’ Report on Internal Control over Financial Reporting and on
      Compliance and Other Matters Based on an Audit of Financial Schedules Performed in
      Accordance with Government Auditing Standards ....................................................................                              3

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedules ................................................................                              15
   Schedule A-1 – Schedule of Award Costs (Award No. ESI-0119787) .........................................                                          17
   Schedule A-2 – Schedule of Award Costs (Award No. ESI-9910207) .........................................                                          18
   Schedule A-3 – Schedule of Award Costs (Award No. ESI-0307925) .........................................                                          19
   Schedule B – Schedule of Questioned Costs .............................................................................                           20
   Schedule C – Summary Schedule of Awards Audited and Audit Results....................................                                             22
   Notes to Financial Schedules ......................................................................................................               24

Appendices
  Appendix A – Awardee’s Comments to Report
  Appendix B – Prior Audit Findings
  Appendix C - Exit Conference
INTRODUCTION
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to Exploratorium under
award numbers ESI-0119787, ESI-9910207, and ESI-0307925 for the period June 1, 2000 to
March 31, 2008. Exploratorium, as a Federal awardee, is required to follow the cost principles
specified in Office of Management and Budget (OMB) Circular A-122, Cost Principles for Non-
Profit Organizations, and the Federal administrative requirements contained in 2 CFR 215 -
Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations (OMB Circular A-110 has been
incorporated into 2 CFR 215).

Exploratorium, located in San Francisco, California, is a nonprofit corporation under Section
501(c) (3) of the Internal Revenue Code. Exploratorium experiments with new practices for
discovering the world, including a science museum filled with interactive science and art
exhibits, a national center for teacher development, an award winning web site of new teaching
resources, and an a growing global network of partner museums. It is also a laboratory for the
research and development of innovations in exhibits, web publishing, and programs, linked to a
world-wide dissemination network. The Exploratorium’s mission is to create a culture of learning
through innovative environments, programs, and tools that help people nurture their curiosity
about the world around them.

Exploratorium was chosen for an audit because of the high dollar and number of NSF awards,
the collaborative nature of many of the awards, and material internal control deficiencies
reported in past OMB A-133 audits. As of September 30, 2008, Exploratorium had 15 active
NSF awards totaling over $30 million. Ten of those active awards are funded at amounts over
$1,000,000 each. Its largest award, award number ESI-0119787, was one of the awards
chosen for audit because it was valued at over $11.6 million of which over $6.2 million (53%)
was budgeted for 2 subawards with academic organizations, where Exploratorium is the
principal management entity to ensure that the programmatic objectives are accomplished and
the financial award terms and conditions are met.

Descriptions of the NSF awards we audited are as follows:

Award ESI-0119787 – Center for Informal Learning and Schools (CILS). NSF awarded ESI-
0119787 to Exploratorium for the period January 1, 2002 to June 30, 2008 in the amount of
$11,656,749, with a cost sharing requirement of $1,186,812. The CILS is a collaborative effort
between Exploratorium in San Francisco, the University of California at Santa Cruz, and King’s
College London, the purpose of which is to study the intersection of informal science learning
found in museums and science centers with formal classroom learning. The award includes sub
awards to the University of California, Santa Cruz ($3.5 million) and King’s College London
($3.1 million).

Exploratorium is responsible for overall management of the project. Cumulative disbursements
for award number ESI-0119787 reported to NSF through March 31, 2008 were $10,967,594.
Cost share claimed totaled $1,472,645.

Award ESI-9910207 – Content, Coaching, and Acculturation: A New Community of
Practice for Beginning Teachers. NSF awarded ESI-9910207 to Exploratorium for the period
June 1, 2000 to May 31, 2007 in the amount of $2,983,974, with a cost sharing requirement of




                                               1
 $4,384,803. The purpose of this award was to implement a discipline-based, beginning teacher
program for middle and high-school science teachers in San Mateo County and Oakland school
districts.

Cumulative disbursements for award number ESI-9910207 reported to NSF through December
31, 2007 were $2,983,974. Cost share claimed totaled $4,806,205.

Award ESI-0307925 – Listening: Making Sense of the Sonic Soup. NSF awarded ESI-
0307925 to Exploratorium for the period September 1, 2003 to August 31, 2007 in the amount of
$2,098,873, with a cost sharing requirement of $209,887. The purpose of this award was to
explore the physical nature of sound, the physiology of hearing and the perception of sound,
and the process of attentive listening.

Cumulative disbursements for award number ESI-0307925 reported to NSF through March 31,
2008 were $2,098,873. Cost share claimed totaled $576,079.

AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit were to:

   1. Determine whether Exploratorium’s system of internal control over administering its NSF
      awards is adequate to account for and ensure compliance with applicable OMB Circular
      and NSF award requirements.

   2. Identify and report instances of noncompliance with laws, regulations and the provisions
      of the award agreements and weaknesses in Exploratorium’s internal controls over
      compliance and financial reporting that could have a direct and material effect on the
      Schedules of Award Costs and Exploratorium’s ability to properly administer, account
      for, and manage its NSF awards.

   3. Determine and report on whether Exploratorium adequately monitors its subawards.

   4. Determine and report on whether the Schedules of Award Costs of the awardee
      presents fairly, in all material respects, the cost claimed on the Federal Financial Report
      (FFR) in conformity with Federal and NSF award terms and conditions.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
Auditing Standards (2007 Revision) issued by the Comptroller General of the United States, and
the guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. These standards and the NSF OIG Audit Guide require that we plan and perform
the audit to obtain reasonable assurance about whether amounts claimed to NSF as presented
in the Schedules of Award Costs (Schedules A-1 through A-3) are free of material
misstatements. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs. An audit also includes assessing the
accounting principles used and the significant estimates made by Exploratorium, as well as
evaluating the overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion.



                                               2
INTERNAL CONTROLS AND COMPLIANCE
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                  INDEPENDENT AUDITORS’ REPORT ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE AND
 OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES PERFORMED IN
          ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1,
A-2, and A-3), which summarize financial reports submitted by Exploratorium to the National
Science Foundation (NSF) and claimed cost sharing for the awards and periods listed below
and have issued our report thereon dated November 7, 2008.

            Award Number                     Award Period                    Audit Period

            ESI – 0119787                 01/01/02 – 06/30/08            01/01/02 – 03/31/08
            ESI – 9910207                 06/01/00 – 05/31/07            06/01/00 – 05/31/07
            ESI – 0307925                 09/01/03 – 08/31/07            09/01/03 – 08/31/07


We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1, A-2,
and A-3 in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States (2007 revision), and the
guidance provided in the National Science Foundation Audit Guide (August 2007), as
applicable.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1, A-2, and
A-3) for the period June 1, 2000 to March 31, 2008, we considered Exploratorium’s internal
control over financial reporting as a basis for designing our auditing procedures for the purpose
of expressing our opinion on the financial schedules, but not for the purpose of expressing an
opinion on the effectiveness of Exploratorium’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of Exploratorium’s internal
control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material



                                               3
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements in a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the entity’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of Exploratorium’s financial schedule that is more than inconsequential will not be
prevented or detected by Exploratorium’s internal control. We consider the deficiencies
described below as Finding Nos. 1 and 3 to be significant deficiencies in internal control over
financial reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial schedules
will not be prevented or detected by Exploratorium’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in the internal control that might be significant deficiencies and, accordingly, would not
necessarily disclose all significant deficiencies that are also considered to be material
weaknesses. However, we do not believe any of the findings noted below are material
weaknesses.


COMPLIANCE WITH LAWS AND REGULATIONS AND OTHER MATTERS

As part of obtaining reasonable assurance about whether Exploratorium’s financial schedules
are free of material misstatement, we performed tests of Exploratorium’s compliance with
certain provisions of applicable laws, regulations, and NSF award terms and conditions,
noncompliance with which could have a direct and material effect on the determination of
financial schedule amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an
opinion. The results of our tests of compliance disclosed three instances of noncompliance that
are required to be reported under Government Auditing Standards and the National Science
Foundation OIG Audit Guide and are described in Finding Nos. 1 through 3 below.

Exploratorium’s response to the findings identified in our audit is described after the findings and
is included in its entirety in Appendix A. We did not audit Exploratorium’s response and,
accordingly, we express no opinion on it.


FINDINGS AND RECOMMENDATIONS

Finding 1. Fiscal Monitoring of Subawardees Could be Improved

Although Exploratorium did some monitoring of its subaward costs charged to NSF Award No.
ESI-0119787, which included two subawards amounting to $6 million or xxxxof the total costs
charged to the NSF award and a total of $551,000 in cost sharing, the monitoring process was
limited and could be improved to provide greater assurance that the subaward costs claimed


                                                 4
are reasonable, allowable and allocable to its NSF award. To a great extent, Exploratorium
relies on the controls and self-assessments made by the subawardees to ensure that
subawardee costs are reasonable, allowable, and allocable to the NSF awards. This finding
was also noted in prior OMB Circular A-133 audit report management letters. In addition, the
monitoring process does not address foreign or other subawardees with no OMB Circular A-133
audit requirement. Therefore, Exploratorium’s internal controls over subaward costs do not
provide adequate assurance that the expenditures incurred and claimed are accurate, valid,
allowable, and adequately documented. In order to validate the subaward charges, we
performed additional audit tests at both of the subawardees. At one subawardee, we found
direct and indirect costs charged based on budget allocations instead of actual costs incurred
and we found that the subawardee had some unsupported costs. As a result, we questioned
$234,785 in subawardee costs. Additional required routine subaward monitoring could prevent
or identify unallowable claimed subaward costs on current and future NSF awards.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations (OMB Circular A-110), Subpart C,
Section .51(a), states: “Recipients are responsible for managing and monitoring each project,
program, subaward, function or activity supported by the award.”

Further, OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, Subpart D, Section 400(d.3) – Pass-Through Entity Responsibilities, states: “A
pass-through entity shall perform the following for the Federal awards it makes:… (3) Monitor
the activities of subrecipients as necessary to ensure that Federal awards are used for
authorized purposes in compliance with laws, regulations, and the provisions of contracts or
grant agreements and that performance goals are achieved.”

Specifically, we found that Exploratorium did not develop and start implementing its subaward
monitoring policies and procedures until FY 2003. Therefore, there were no formal subaward
polices or procedures implemented from the inception of the award (January 1, 2002) through
FY 2003. According to its policies and procedures a potential subawardee is required to
complete a subrecipient fact sheet and attach its Single Audit Report if there were findings or
certify that there were no findings. Thereafter, the subawardee is required to certify yearly that
they have completed an OMB A-133 Single Audit if required. If there were any material
weaknesses or instances of non-compliance the subawardee is required to provide a copy of
the A-133 audit report for Exploratorium to review and follow-up with the subawardee to ensure
that any issues are properly and timely resolved. However, even with the subaward polices in
effect the fiscal monitoring activities for the subawardees of this award, with the exception of
random sampling of Kings College London (KCL), were limited to the review of subawardee
invoices for mathematical accuracy and budgetary compliance, as well as the review of
certification of single audit results of University of California, Santa Cruz (UCSC).

The Program Manager responsible for the subaward with UCSC does not request or perform a
review of supporting documentation for claimed costs from UCSC because Exploratorium relies
heavily on the A-133 audits for UCSC. Fiscal monitoring procedures were limited to a review of
UCSC invoices for mathematical accuracy and budgetary compliance. We believe that
Exploratorium’s subawardee monitoring could be improved if it’s subaward monitoring policy
required that, in addition to requesting that the subawardee self-assess, Exploratorium also
proactively review the subawardee’s A-133 report findings to ensure that the subawardee’s self
assessment is accurate and complete and ensure that Exploratorium adequately evaluate the
sufficiency of the subawardee’s award administration process. We also noted that the scope of
A-133 audits performed on state university systems such as the University of California system,


                                                5
that includes multiple campuses, is more limited and may warrant more detailed subawardee
monitoring, even though the OMB Circular A-133 report performed appears to have no
weaknesses.

Exploratorium could also improve its subaward monitoring policies and procedures by including
a risk-based process to assess the risk of its subawards to determine the level of subawardee
oversight necessary. The risk level assigned during the risk assessment process would
determine the need for performing steps beyond a review of the OMB Circular A-133 audit
report results, such as performing desk reviews, site visits, and sampling of support
documentation. A formal subaward monitoring risk assessment process could better prevent or
identify unallowable subaward costs claimed on NSF awards.

In addition, Exploratorium’s current policies and procedures do not address specific monitoring
steps for subawardees that are foreign or otherwise not required to undergo an OMB Circular A-
133 audit. Although Exploratorium’s subawardee monitoring policies and procedures did not
address foreign subawardees, the Program Manager for Exploratorium sampled a portion of the
invoices from KCL by asking for supporting documentation such as invoices, vendor statements,
and expense reports for selected items from the detail transaction listing provided with the
invoice. However, even though in this instance the Program Manager took the initiative to
request and review limited documentation for the foreign subawardee, Exploratorium’s
subaward monitoring policies and procedures should include these and other appropriate steps
that should be taken to verify subaward costs for foreign and other subawardees that are not
subject to OMB Circular A-133 requirements. Exploratorium's policies and procedures should
also require that the rationale used to monitor each subawardee be documented.

We performed additional on-site procedures at both subawardees, UCSC and KCL, to satisfy
ourselves that the subaward costs charged by Exploratorium to the NSF grant were accurate,
allowable and allocable. No exceptions were noted during our site visit to UCSC. The following
is a description of the exceptions we noted during our on-site visit to KCL:

Kings College London (KCL)

A. Billing based on Budget Allocations

KCL billed Exploratorium based on budget allocations for all cost categories rather than actual
costs from the inception of the award (January 1, 2002) through May 31, 2003. This involved
nine invoices which totaled $227,109. These invoices were not supported by a detailed
transaction ledger with supporting documentation. Instead, the costs were based on budget
allocations rather than in accordance with what had actually been spent in the period. Because
there was no supporting documentation for any costs incurred we were unable to verify the
costs billed. As a result, we questioned the total costs billed based on budget allocation rather
than actual costs in the amount of $227,109. Costs billed after May 31, 2003 were based on
actual expenses.

In addition, indirect costs totaling $xxxxxxxwere included in the billings for the first year because
indirect costs were included in the budget. However, NSF generally provides no amounts for
indirect costs for foreign grantees per Grant Policy Manual (GPM) 633.2 a. 4 and we verified
with NSF that indirect costs were not allowed on this award. In response to our inquiries
regarding billing for indirect costs, Exploratorium provided us with a revised invoice covering
KCL’s subawardee costs for the year 2002 that reflected no indirect costs. However, KCL does
not currently reflect this revised invoice in its system and it is also not supported by a detailed


                                                 6
transaction journal and supporting documentation. Therefore, we were never provided evidence
that the revised invoice was recorded in KCL’s or Exploratorium’s accounting system. These
indirect costs of $xxxxxxxxx are included in the amount of $227,109 questioned above. Indirect
costs were not billed after the first year of the award.


B. Supporting Documentation Unavailable

Kings College London was unable to provide supporting documentation for seven transactions
tested that were billed during a period from October, 2003 to June, 2006 that totaled $7,676
(1.01% of total tested). Therefore, we were unable to establish that these charges were
allowable, allocable, and reasonable. As a result, we questioned the transactions as scheduled
below.

                                                            Questioned
                      Category            Transactions         Costs
             Consultants                       2           xxxxxxxxxxxxx
             Materials                         2           xxxxxxxxxxxxx
             Other                             2           xxxxxxxxxxxxx
             Travel                            1           xxxxxxxxxxxxx
             Total                             7              $ 7,676


Recommendation 1:

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
ensure that Exploratorium revise its subaward monitoring policies and procedures to include:

   a. a proactive review of subawardee’s OMB Circular A-133 report findings to ensure that
      the subawardee’s self-assessment is accurate and complete and that Exploratorium
      adequately evaluates the sufficiency of the subawardee’s award administration process.
   b. Provisions for subaward monitoring for its foreign or other subawardees with no OMB
      Circular A-133 audit requirements.
   c. A formal subaward monitoring risk-assessment process.


Awardee’s Comments

The Exploratorium agrees with this recommendation. As a result of this recommendation the
policy has been enhanced to include steps to monitor foreign and other subawardees that are
not subject to OMB Circular A-133 requirements; and also to include a risk-based monitoring
approach to ensure that costs charged to NSF awards are reasonable, allowable, and allocable.
(See Attachment #1 -10.B in Appendix A)


Auditor’s Response

Exploratorium’s comments are responsive to the finding and recommendation.




                                              7
This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactorily implemented.


Finding 2. Program Income not added to Project

Program income earned on NSF Award No. ESI-0307925 for $xxxxxxxxx was not added to the
funds committed to the NSF project and used to further project objectives. The program income
was earned during the last three months of the award and was used improperly to fund cost
share even though the terms of the award stated that was not allowable. This occurred
because Exploratorium did not have policies, procedures, and controls to identify income
earned prior to the termination of the award and to properly record program income in
Exploratorium’s financial accounting system, even though this finding was identified in a prior
2003 OMB Circular A-133 audit. As a result, the total expenditures reimbursed by NSF for the
award have been overstated by the program income received during the life of the grant.
Therefore, we questioned $xxxxxxxxx in costs charged to Award No. ESI-0307925.

NSF Grant Policy Manual (GPM), Section 750 Program Income, subsection 752 Definition
states, “Program Income means gross income earned by the grantee that is directly generated
by a supported activity or earned as a result of the grant. Program income includes, but is not
limited to, income from fees for services performed, the use or rental of real or personal property
acquired under the grant….”

Subsection 753 NSF Policy, (a) Standard Treatment states “Unless otherwise specified in the
grant, program income received or accruing to the grantee during the period of the grant is to be
retained by the grantee, added to the funds committed to the project by NSF, and thus used to
further project objectives. The grantee has no obligation to NSF with respect to: 1) license fees
and royalties for copyrighted material, patents, patent applications, trademarks and inventions;
or 2) program income received beyond the period of the grant.

Per Award Document (Grant Letter), page 2, “Program income received or accrued to the
grantee during the period of this grant shall be retained and added to the funds committed to the
project by NSF and used to further project objectives. Program income cannot be used to fund
cost share.”

However, we found that program income earned prior to the termination of NSF Award No. ESI-
0307925 was not added to the funds committed to the NSF project and the income received
during the award was not used to further project objectives. One of the objectives of NSF
Award No. ESI-0307925, “Listening: Making Sense of the Sonic Soup” was to construct
approximately 30 exhibits that would be used as a traveling exhibition at the conclusion of the
award period. The exhibits were constructed during the award period which ended August 31,
2007. The Exhibit Rental and Service Agreement indicated that the traveling exhibition was
sent out to a science center for rental in June of 2007 which was three months prior to the end
of the award. A review of the detail trial balance report revealed that the traveling exhibition
earned $xxxxxxxxx in rental income during the period June 1, 2007 through August 31, 2007.
This rental income was recorded in Exploratorium’s general fund and not added to the funds
committed to the NSF project.

Exploratorium personnel did not make the necessary adjustment to record this income in the
Listening Fund instead of in the General Fund. By recording the income in the Listening Fund
the funds would have been available to use towards the cost of the exhibits or other project


                                                8
expenses. However, by recording the income in the General Fund the funds were not available
to use to fund project objectives but were part of the general funds that Exploratorium could use
to provide cost share or any other use that Exploratorium deemed necessary. By identifying the
program income earned prior to the end of the award Exploratorium could have made an
adjusting entry to transfer that portion of the income to the Listening Fund. However, the
program income was earned during the term of the award and was added to the General Fund
and ultimately used improperly to fund cost share, even though the terms of the award stated
that was not allowable.

Although Exploratorium had developed and implemented policies and procedures for the
accountability of program income received after the termination of awards, those policies and
procedures did not include controls to properly identify program income earned prior to the
termination of the award, or instructions on how to properly record program income in
Exploratorium’s financial accounting system. In addition, there were no policies and procedures
in place to address how program income should be used to further project objectives.
Exploratorium officials indicated that, in most cases, Exploratorium awards would not earn
program income prior to the termination of the award. However, in this case, the exhibit was
completed and began earning income three months prior to the end of the grant period. As a
result, the total expenditures reimbursed by NSF for the award have been overstated by the
program income received during the life of the grant. Therefore, we questioned $22,500 in
costs charged to Award No. ESI-0307925.


Recommendation 2:

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
instruct Exploratorium to develop policies, procedures, and controls to properly account for
program income received during the life of an award to ensure that such income is added to the
funds committed to the NSF project and used to further project objectives.


Awardee’s Comments

Exploratorium agrees with this recommendation. A policy was put in place in 2007 addressing
this recommendation. (See Attachment #2 in Appendix A)

Exploratorium believes the situation cited in this report was an isolated incident. Program
income of $xxxxxx was not added to the funds committed to the project by NSF. However, there
were program related expenses of xxxxxxxxxxxx in excess of the budget that were not claimed.
Because these expenses were not claimed they were available to offset any questioned costs
as a result of the program income. The on-site auditors verified this finding.

The importance of properly identifying and recording program income has been communicated
to the project management staff involved and to all project management staff responsible for
government projects.


Auditor’s Response

Exploratorium’s comments are responsive to the finding and recommendation.



                                               9
This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactorily implemented.


Finding 3. Lack of Adequate Supporting Documentation

Exploratorium did not maintain adequate documentation to support some costs claimed on NSF
award Nos. ESI-0119787 and ESI-9910207. During our review of direct costs charged to the
NSF awards and cost share claimed, we found 16 transactions of direct costs and 5
transactions for cost share claimed for $164,785 that were either not supported or supported
with insufficient documentation. This occurred because Exploratorium personnel did not comply
with existing policies and procedures for maintaining records and documenting charges for the
NSF awards. As a result, Exploratorium’s lack of adequate supporting documentation increases
the risk that some of the costs claimed by Exploratorium may be unallowable, unreasonable, or
not allocable to the NSF awards. We questioned $ xxxxxx of direct costs and cost share
claimed, and, $ xxxxxx of associated fringe benefits and indirect costs.

CFR Title 2, Part 215 (OMB Circular A-110), Subpart C, 215.21 (b) (7) states recipients’
financial management systems shall provide for “Accounting records including cost accounting
records that are supported by source documentation.” Furthermore, OMB Circular A-122, Part
A, section 2, states that for costs to be allowable, they must be both reasonable and allocable.

Documentation could not be located for transactions that occurred from the years 2000 through
2007, with most exceptions in years 2001 through 2005. The exceptions are detailed below by
cost category.

       Salaries and Wages - For 2 salary and wage transactions out of a sample of xxx xxx
       at xxxxxx, Exploratorium was unable to provide the related timesheet for one transaction
       to substantiate the hours paid and the allocation while for the other transaction the entire
       pay amount was charged to the grant rather than allocated per the timesheet. As a
       result, we questioned $ xxxxx x ($ xxxx xxin salaries and wages and $1,666 in
       associated fringe benefit and indirect costs).

       Travel Costs - For 4 travel transactions out of a sample of 52 valued at $73,427,
       Exploratorium was unable to provide documentation for one transaction, while support
       for the other three was insufficient to establish allowability, allocability, and
       reasonableness. As a result, we questioned $5,225 (xxxxx x in travel costs and xxxxx x
       in associated indirect costs).

       Participant Support - For 2 participant support transactions out of a sample of 55
       valued at $ xxxxx x, Exploratorium was unable to provide supporting documentation.
       Therefore, we were unable to establish allowability, allocability, and reasonableness and
       as a result, we questioned $250 in participant support costs.

       Materials and Supplies - For 2 materials and supplies transactions out of a sample of
       xxxxx x xxxxx        x , Exploratorium was unable to provide supporting documentation
       and therefore we were unable to establish allowability, allocability, and reasonableness.
       As a result, we questioned $10,907 (xxxxx x xxxxx       xxxxx x xxxxx        xxxxx x xxxxx
       xxxxx x xxxxx            ).


                                               10
Consultant Services - We noted exceptions in 4 instances, out of a sample of 34
transactions tested valued at $238,888. In two instances Exploratorium was unable to
provide any supporting documentation and in the other two instances Exploratorium
provided an approved consulting invoice, but was unable to provide the contract for the
services. As a result we were unable to determine what types of services were provided
as well as the terms of payment. For consulting services, the NSF Grant Policy Manual,
Chapter VI, section 616.1 (a) states that the “adequacy of the contractual agreement for
the service (e.g., description of the service, estimate of time required, rate of
compensation and termination provisions),” is a factor in determining the allowability of
costs. Additionally, Exploratorium’s policy requires that contracts be entered into for
services, and supporting documentation be maintained. As such, we questioned
$52,473 (xxxxx x xxxxx      xxxxx x xxxxx       xxxxx x xxxxx    xxxxx x xxxxx      ).

Other Direct Costs – For 2 other direct costs transactions out of a sample of xxxxx x
xxxxx        , Exploratorium was unable to provide adequate supporting documentation.
For one transaction that was related to consulting services, an approved accounts
payable form was provided as support along with the vendor's invoice. However, there
is only a limited description of the services provided and no reference to the terms of
payment. An agreement or contract was not provided by the grantee for our review,
even though the approval form stated that the payment was a "contract payment". For
the other transaction, documentation was provided but the receipts for food and
beverages were unreadable and no listing of attendees for the meeting at Kelly’s Mission
was provided in accordance with the Exploratorium food and drink policy. As a result,
we questioned a total of $10,635 in other direct costs (xxxxx x xxxxx     xxxxx x xxxxx
xxxxx x xxxxx       xxxxx x xxxxx     ).

Cost Sharing – For 5 cost share transactions (1 salaries and wages, 2 consulting and 2
other costs), out of a sample of xxxxx x xxxxx             , Exploratorium was unable to
provide adequate documentation. For one salary transaction, Exploratorium was unable
to provide the related timesheet to substantiate the hours paid and the allocation. This is
part of the same transaction reported in the first finding under Salaries and Wages
above. For two consulting transactions, the support contained a check stub and a
consultant invoice. An executed agreement or contract was not provided and as such
we were unable to determine what types of services were provided as well as the terms
of payment. Under the teacher institute grant, Exploratorium claimed as cost share
donated time by the school district for teachers and administrators to attend and
participate in workshops. Attendees were not compensated by Exploratorium and
continued to receive normal wages from the school district during their participation.
Part of the strategy to achieve the objectives of the award was for Exploratorium to
conduct workshops and summer institutes for leadership training and professional
development for teachers. The procedure was for a staff person from Exploratorium to
log the number of teachers who attended and the program manager would enter the
number into a spreadsheet used for computing and tracking the cost of the donated
time. However, in two instances, a record of attendance was not provided as part of the
supporting documentation. The grantee provided an agenda of a workshop as support
for one of the transactions, but no attendance records were submitted. The other
transaction lacked both, an agenda as well as attendance records. As a result, for the 5




                                        11
       transactions, we questioned a total of $81,866 in cost sharing ($80,977 in expenses and
       $889 in associated fringe benefit and indirect costs).

The above questioned costs are summarized in the following table:

                           Sample size          Questioned Costs   Fringe Benefits      Total
Cost Category        Transactions    Value    Transactions Value & Indirect Costs Questioned Costs
Salaries & Wages         xxx      xxxxx x x       Xx        xxxxxx      xxx xxx       xxxxxx
Travel Costs             xxx      xxxxxx xxx      xxx      xxx xxx      xxx xxx       xxxxxx
Participant Support      xxx      xxx xxx xxx     xxx      xxx xxx       xxxxxx       xxxxxx
Materials & Supplies     xxx      xxxxxx xxx      xxx       xxxxxx      xxx xxx       xxxxxx
Consultant Services      xxx      xxxxxx xxx      xxx      xxx xxx      xxx xxx       xxxxxx
Other Direct Costs       xxx      xxxxxx xxx      xxx       xxxxxx      xxx xxx       xxxxxx
Cost Sharing             xxx      xxxxxx xxx      xxx       xxxxxx      xxx xxx       xxxxxx
Total                    xxx      xxxxxx xxx      xxx       xxxxxx      xxx xxx     $164,785


Exploratorium did not adequately follow its policies and procedures to ensure that it maintained
the necessary supporting documentation to properly support claimed costs under the NSF
awards. Exploratorium’s policies and procedures require that adequate supporting
documentation, which includes a clear indication of the business purpose of the expenditure be
provided and maintained for all payments. Acceptable types of supporting documentation
include original invoice, artist or independent contractor contract, honorarium agreement, and
original receipts.    The project managers are responsible for reviewing the supporting
documentation and verifying that all required information is included. The PIs are responsible
for monitoring, reviewing supporting documentation, and approving expenditures. Upon
payment, the supporting documentation should be filed and maintained in Exploratorium’s office
until later moved to storage. The policies and procedures require that archived records be
maintained in a locked storage building for five years after closure of a grant, depending on
grant guidelines.

Documentation necessary to properly support claimed costs was either missing or insufficient.
The missing documentation was misfiled and could not be located in Exploratorium’s archived
files. In cases where documentation was received but not complete, a description of the
expenses and/or the relation to the purpose of the award was not identified on the supporting
documentation as required in existing policies and procedures. Regarding the lack of support
for the donated time by the school district referred to above in the cost sharing category, the two
workshops were held off site and attendance was taken by school district personnel. No copies
of the attendance records were submitted by the school district or obtained by Exploratorium, to
support the cost share claimed in accordance with Exploratorium’s normal procedures.

Exploratorium’s failure to obtain and maintain adequate supporting documentation affects its
ability to support and report claimed costs under NSF awards and increases the risk that some
of the costs claimed by Exploratorium may be unallowable, unreasonable, or not allocable to the
NSF awards. We questioned xxxx xxx xx of direct costs and cost share claimed, and, xxxxxx of
associated fringe benefits and indirect costs.




                                                12
Recommendation 3:

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
instruct Exploratorium to comply with its procedures to:

       a.)   obtain, review, and approve adequate documentation to ensure that appropriate
             charges are made to NSF awards;
       b.)   prepare adequate contract agreements for services such as consultants;
       c.)   archive records properly to ensure that supporting documentation is not
             misplaced or misfiled; and
       d.)   ensure that proper supporting documentation is obtained from third parties when
             donated services are received. Principal investigators should review cost share
             documentation for donated services or time when performing their review and
             approval of eligible costs.


Awardee’s Comments

The Exploratorium agrees with this recommendation. As a result of this report it was
communicated to project management staff responsible for government projects the importance
of obtaining adequate supporting documentation for government projects. Emphasis was placed
on the following:

       a.) Review and approval of documentation to ensure that appropriate charges are made
           to government projects, including cost share projects.

       b.) Oversight of consultants for federal awards.

       c.) Ensure that proper supporting documentation is obtained from third parties when
           donated services are received.

Also, archive procedures were reviewed with accounting staff to ensure that supporting
documentation is not misfiled.


Auditor’s Response

Exploratorium’s comments are responsive to the finding and recommendation.

This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactorily implemented.




                                              13
This report is intended solely for the information and use of Exploratorium’s management, the
National Science Foundation, the Office of Management and Budget, and the Congress of the
United States and is not intended to be and should not be used by anyone other than those
specified parties.




Mayer Hoffman McCann P.C.
Conrad Government Services Division
Irvine, California
March 16, 2009




                                             14
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


            INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by Exploratorium to the National Science Foundation (NSF)
on the Federal Financial Reports (FFRs) for the NSF awards listed below. In addition, we
audited the amount of cost sharing claimed on the NSF awards. The FFRs, as presented in the
Schedules of Award Costs (Schedules A-1, A-2, and A-3), are the responsibility of
Exploratorium’s management. Our responsibility is to express an opinion on the Schedules of
Award Costs (Schedules A-1, A-2, and A-3) based on our audit.

            Award Number                    Award Period                   Audit Period

             ESI-0119787                 01/01/02 – 06/30/08           01/01/02 – 03/31/08
             ESI-9910207                 06/01/00 – 05/31/07           06/01/00 – 05/31/07
             ESI-0307925                 09/01/03 – 08/31/07           09/01/03 – 08/31/07


We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States (2007 revision), and
the guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. These standards and the National Science Foundation OIG Audit Guide, require
that we plan and perform the audit to obtain reasonable assurance that the amounts claimed to
NSF as presented in the Schedules of Award Costs (Schedules A-1, A-2, and A-3) are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the Schedules of Award Costs (Schedules A-1, A-2, and A-3). An
audit also includes assessing the accounting principles used and the significant estimates made
by Exploratorium’s management, as well as evaluating the overall financial schedule
presentation. We believe our audit provides a reasonable basis for our opinion. The Schedule
of Questioned Costs (Schedule B) explains the $340,204 (2%) of total claimed NSF funds that
we have questioned as to their allowability under the award agreement. These questioned
costs include unallowable salaries and wages, fringe benefits, travel, participant support,
materials and supplies, consultant services, subawards, other direct costs, and indirect costs.



                                              15
Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations or specific award conditions, (2) costs that require
additional support by the awardee, or (3) costs that require interpretation of allowability by the
National Science Foundation – Division of Institution and Award Support (DIAS). NSF will make
the final determination of cost allowability. The ultimate outcome of this determination cannot
presently be determined. Accordingly, no adjustment has been made to costs claimed for any
potential disallowance by NSF.

In our opinion, except for the $340,204 of questioned NSF-funded costs, the Schedules of
Award Costs (Schedules A-1, A-2, and A-3) referred to above present fairly, in all material
respects, the costs claimed on the FFRs for the period June 1, 2000 to March 31, 2008 in
conformity with the provisions of the National Science Foundation OIG Audit Guide, NSF Grant
Policy Manual, terms and conditions of the NSF award and on the basis of accounting described
in the Notes to the Financial Schedules, which is a comprehensive basis of accounting other
than generally accepted accounting principles. These schedules are not intended to be a
complete presentation of financial position of Exploratorium in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, and guidance provided in the National
Science Foundation OIG Audit Guide, we have also issued a report dated November 7, 2008,
on our consideration of Exploratorium’s internal control over financial reporting and our tests of
Exploratorium’s compliance with certain provisions of laws, regulations, and NSF award terms
and conditions and other matters. The purpose of that report is to describe the scope of our
testing over internal control over financial reporting and compliance and the results of that
testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.

This report is intended solely for the information and use of Exploratorium’s management, NSF,
the Office of Management and Budget, and the Congress of the United States of America, and
is not intended to be, and should not be used by anyone other than these specified parties.




Mayer Hoffman McCann P.C.
Conrad Government Services Division
Irvine, California
March 16, 2009




                                               16
Schedules A-1, A-2, A-3 Redacted
                                            SCHEDULE B


             EXPLORATORIUM
National Science Foundation Award Numbers
ESI-011978790, ESI-9910207, ESI-0307925
       Schedule of Questioned Costs
    From June 1, 2000 to March 31, 2008




             REDACTED




                   20
                                                                            SCHEDULE B


                                  EXPLORATORIUM
                     National Science Foundation Award Numbers
                      ESI-0119787, ESI-9910207, ESI-0307925
                            Schedule of Questioned Costs
                         From June 1, 2000 to March 31, 2008

                                     (Continued)



Note B-3   Subaward Costs
           We performed additional on-site procedures at the two subawardees to satisfy
           ourselves that the subaward costs charged by Exploratorium to the NSF grant
           were accurate, allowable and allocable. We found that Exploratorium claimed
           $234,785 of questionable subaward costs to the NSF award. Costs of $227,109
           claimed by one of Exploratorium’s subawardees, Kings College, London (KCL),
           were based on budget allocations instead of actual costs for the first seventeen
           months of the program. In addition, KCL was unable to provide supporting
           documentation for seven transactions tested totaling $7,676.              These
           questionable costs from the subawardee were passed on to NSF through the
           “Subaward” cost category claimed by Exploratorium.          (See Finding and
           Recommendation No. 1 in the Independent Auditors’ Report on Internal Control
           Over Financial Reporting and on Compliance and Other Matters.)




                                          21
                                                                             SCHEDULE C


                               EXPLORATORIUM
                Summary Schedule of Awards Audited and Audit Results
                       From June 1, 2000 to March 31, 2008


Summary of Awards Audited

    Award Number       Award Period                Audit Period
   ESI-0119787       01/01/02 – 06/30/08        01/01/02 – 03/31/08
   ESI-9910207       06/01/00 – 05/31/07        06/01/00 – 05/31/07
   ESI-0307925       09/01/03 – 08/31/07        09/01/03 – 08/31/07

    Award Number       Type of Award                      Award Description
     ESI-0119787           Grant           This award is a collaborative effort between
                                           Exploratorium in San Francisco, the University
                                           of California at Santa Cruz, and King’s College
                                           London, the purpose of which is to study the
                                           intersection of informal science learning found
                                           in museums and science centers with formal
                                           classroom learning.
     ESI-9910207            Grant          The purpose of this award was to implement a
                                           discipline-based, beginning teacher program
                                           for middle and high-school science teachers in
                                           San Mateo County and Oakland school
                                           districts.
     ESI-0307925            Grant          The purpose of this award was to explore the
                                           physical nature of sound, the physiology of
                                           hearing and the perception of sound, and the
                                           process of attentive listening.


Summary of Questioned and Unsupported Costs by Award

                                           Claimed       Questioned      Unsupported
    Award Number     Award Budget           Costs          Costs            Costs
   ESI-0119787       $ 11,656,749          xxxxxxxxx        310,205        309,109
   ESI-9910207          2,983,974          xxxxxxxxx           7499          7,499
   ESI-0307925          2,098,873          xxxxxxxxx         22,500               -
         Total       $ 16,739,596          xxxxxxxxx        340,204        316,608

                                                        Questioned        Questioned
                                           Claimed      NSF-Funded       Unsupported
    Cost Sharing     Award Budget           Costs         Costs             Costs
   ESI-0119787       $ 1,186,812           xxxxxxxxx            -             1,866
   ESI–9910207          4,384,803          xxxxxxxxx            -            80,000
   ESI-0307925            209,887          xxxxxxxxx            -                 -
         Total       $ 5,781,502           xxxxxxxxx            -            81,866


                                           22
                                                                              SCHEDULE C


                                  EXPLORATORIUM
                    Summary Schedule of Award Audited and Audit Results
                          From June 1, 2000 to March 31, 2008

                                          (Continued)


Summary of Questioned Cost by Explanation

                                 Questioned
            Category               Costs            Internal Controls    Non-Compliance
   Salaries and Wages           $ xxxxxx                   Yes                Yes
   Fringe Benefits                xxxxxx                   Yes                Yes
   Travel                            xxxxxx                Yes                Yes
   Participant Support               xxxxxx                Yes                Yes
   Material & Supplies               xxxxxx                Yes                Yes
   Consulting                        xxxxxx                Yes                Yes
   Subawards                         xxxxxx                Yes                Yes
   Other Direct Costs                xxxxxx                Yes                Yes
   Indirect Costs                    xxxxxx                Yes                Yes
   Cost Sharing                      xxxxxx                Yes                Yes


Summary of Non-Compliance and Internal Control Findings

                                                                        Amount of       Amount of
                         Non-Compliance                                 Questioned       Claimed/
                              and/or         Significant    Material      Costs      Incurred Costs
       Findings          Internal Control    Deficiency    Weakness      Affected        Affected
 Lack of Adequate        Non-Compliance         Yes            No        $ 234,785     $ 6,104,939
  Fiscal Monitoring         and Internal
  of Subawardees              Control

 Program Income not      Non-Compliance            No         No           22,500         22,500
  added to Project

 Lack of Adequate        Non-Compliance         Yes           No          164,785       9,945,502
  Supporting               and Internal
  Documentation              Control




                                              23
                                   EXPLORATORIUM
                              Notes to Financial Schedules
                           From June 1, 2000 to March 31, 2008


Note 1: Summary of Significant Accounting Policies

        Accounting Basis
        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions, which are based on a comprehensive basis of
        accounting other than generally accepted accounting principles. Schedules A-1, A-2,
        and A-3 have been prepared by Exploratorium from the Federal Financial Reports
        (FFRs) submitted to NSF and Exploratorium’s accounting records. The basis of
        accounting utilized in preparation of these reports differs from generally accepted
        accounting principles. The following information summarizes these differences:

          A. Equity
              Under the terms of the award, all funds not expended according to the award
              agreement and budgeted at the end of the award period are to be returned to
              NSF. Therefore, the awardee does not maintain any equity in the award and any
              excess cash received from NSF over final expenditures is due back to NSF.

          B. Inventory
              Minor materials and supplies are charged to expense during the period of
              purchase. As a result, no inventory is recognized for these items in the financial
              schedules.

        Income Taxes

        The Exploratorium is a nonprofit corporation under Section 501(c) (3) of the U.S.
        Internal Revenue Code and has received rulings from the Internal Revenue Service
        and the California Franchise Tax Board granting it exemption from income taxes.

        The departure from generally accepted accounting principles allows NSF to properly
        monitor and track actual expenditures incurred by the Grantee. The departure does
        not constitute a material weakness in internal controls.

Note 2: NSF Cost Sharing and Matching
        The following represents the cost share requirement and actual cost share as of March
        31, 2008:
                               Cost Share         Actual Cost Share
          Award Number           Required             Provided            Over/(Under)
          ESI-0119787          $ 1,186,812          $ 1,472,645            $ 285,833
          ESI-9910207            4,384,803            4,806,205              421,402
          ESI-0307925              209,887              576,079              366,192




                                             24
                                  EXPLORATORIUM
                             Notes to Financial Schedules
                          From June 1, 2000 to March 31, 2008

                                      (Continued)


Note 3: Indirect Cost Rates




                                       REDACTED




                                          25
APPENDIX A - AUDITEE’S COMMENTS TO
              REPORT
APPENDIX B– PRIOR AUDIT FINDINGS
                                                                                   APPENDIX B




PRIOR AUDIT FINDINGS

The Exploratorium OMB Circular A-133 audit reports and management letters for years 2003
through 2007 contained several audit findings and weaknesses. We reviewed these findings
and weaknesses and all appeared to have been addressed. However, we found two that
remain issues in this audit report.

The 2003 OMB Circular A-133 audit report included a finding for program income not used to
reduce current Federal expenditures. Corrections have been made for the 2003 finding; this
condition was not found in the subsequent OMB Circular A-133 audits for FYs 2004 – 2007.
However, this condition was found during our audit of award ESI-0307925. See Finding No. 2.

The 2003 OMB Circular A-133 management letter included a recommendation that
Exploratorium review its current level of controls over subcontractor monitoring, and institute a
higher level of monitoring controls. Also, the 2007 management letter recommended that
Exploratorium obtain and review the actual OMB Circular A-133 audit reports rather than just
written documentation from the subcontractor and confirm that no findings were noted. We
found that this weakness continued to exist at Exploratorium. See Finding No. 1.
APPENDIX C – EXIT CONFERENCE
                                                                              APPENDIX C

EXIT CONFERENCE


We conducted an exit conference on February 9, 2009 via telephone with the Exploratorium
office in San Francisco, California. We discussed preliminary findings and recommendations
noted during the audit. Representing Exploratorium was:

           Name                                  Title

     xxxxxxxxxxxxxxx      xxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxx      xxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxx      xxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxx      xxxxxxxxxxxxxxx
     Xxxxxxxxxxxxxxx      xxxxxxxxxxxxxxx


Representing the National Science Foundation – Office of Inspector General was:

           Name                          Title

    Billy McCain           Audit Manager


Representing Mayer Hoffman McCann P.C. – Conrad Government Services Division was:

           Name                          Title

    xxxxxxxxxxxxxxx        xxxxxxxxxxxxxxx
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
            oig@nsf.gov

            Telephone
           703-292-7100



             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                  Mail
      Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
          Arlington, VA 22230
